                                           E
                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                                  CLOSEOUT MEMORANDUM

I
                                                       -




     Case Number: A03060036                                                                      Page 1 of 1



              The allegation in this case is a breach of panel review confidentiality. A call was reportedly
              made by a principal investigator (PI)' to an NSF program office? about the status of his
              proposal,) with apparent knowledge by the PI of its competitive ranking in a panel that had
              concluded the previous day.' The program officer brought information about the call to the
              program officer who ran the panel, who confirmed the ranking of the proposal from the panel
              that met the previous day.

              The PI whose proposal was considered by the panel admits making the call to the NSF program
              officer, but claims only to have talked with the program officer in general about the chances for
              funding of his proposal. The PI does not admit to knowing any confidential panel review results.
               None of the panel reviewers contacted indicate that they discussed the panel review results
              outside of the panel.

              In the absence of admission by a panelist or the supposed recipient of confidential information,
              the existence of a breach of review confidentiality cannot be established.

              Accordingly, this case is closed.




                              -   -




              ' Redacted
               Redacted
               Redacted
               Redacted



-        --

    NSF OIG Form 2 (1 1/02)
